                             OFFICE OF INSPECTOR GENERAL

                                    MEMORANDUM




DATE:          December 19, 1994

REPLY TO
ATTN OF:       Acting Inspector General

SUBJECT:       Audit of The Advisory Committee
               on Advanced Television Services (OIG 95-2)

TO:            Managing Director



At the request of your office, auditors assigned to the Office of Inspector General (OIG) audited
the operations of The Advisory Committee on Advanced Television Service (hereafter referred
to as the Committee). The auditors found that internal controls and supporting records are
sufficient to provide necessary assurance that the funds of the Committee are being properly
maintained and expended in conjunction with applicable regulations and guidelines.


                                        BACKGROUND

The Committee was empanelled by the Federal Communications Commission (FCC) on October
1, 1987, to develop recommended "policies, standards, and regulations that would facilitate the
orderly and timely introduction of advanced television services in the United States." The
Committee is chartered in accordance with the Federal Advisory Committee Act (FACA), and its
parent committee is composed of 25 voting members, as well as an unspecified number of ex
officio members, throughout government and industry.

FCC Directive FCCINST 1126.1, Subject: Federal Advisory Committees, sets forth the FCC's
policy, administrative guidelines, and management controls relative to advisory committees as
required by the Federal Advisory Committee Act, Stat.770, and Executive Order 12024 (42 FR
61445, 3 CFR, 1977 Comp., p. 158).

On October 17, 1989, Edward J. Minkel in his capacity as the Managing Director, approved the
Committee request for private funding by employees or representatives who serve on the
advisory committee. In doing so, the Managing Director placed a number of specifications on
the fund handling and accountability.

The Managing Director required that the bank (Crestar) handling the Committee's account be
given the name of four people listed in the Reimbursement Procedures so that they will not
honor any other signatures. The Cash Handling Procedures of the Committee requires that "all
checks be signed by any two of the four people listed in the Reimbursement Procedures."

The Managing Director also instructed the Committee to perform a monthly reconciliation of the
cash receipts and cash disbursements journal to the bank statements and ensure that an annual
audit be performed of the fund.

On September 2, 1992, auditors from the FCC's Common Carrier Bureau (CCB), issued a report
on the status of Committee funds for the period of July 1, 1988 through the period ending June
30, 1992. This represented the initial audit of the Committee since it's inception.

The audit report identified four "minor deviations" in the application of the internal controls for
the audit period. One deviation was reported as follows:

     Annual audits were not performed on the private funds received by the Advisory
     Committee on ATS, for the period ended, June 1989 and the years ended June 30,
     1990 and 1991 as required by the rules. Apparently this was an oversight by both
     the FCC and the Advisory Committee on ATS, as each party thought the other party
     was responsible for the performance and scheduling of the audit.

The auditors also noted that the required dual signatory rule on all disbursement checks was not
adhered to in two instances and that in one case a receipt for a taxi over $25 was not retained.
Finally, one party making a contribution to the Committee was not authorized to do so as they
were ex officio members of the Committee and not members of the Advisory Committee.


                                     PURPOSE AND SCOPE

This audit was performed to provide an independent assessment as to the integrity of Committee
funds. Audit emphasis was placed on evaluating compliance with internal controls for handling
deposits and ensuring that all disbursements were valid and supportable. All cash receipts, bank
charges and disbursements from the period of July 1, 1992 through November 30, 1994 were
examined and traced back to monthly bank statements and journals maintained by the
bookkeeper.


                                        AUDIT RESULTS

Results of the audit reflect that the internal controls established over the Committee's funds are
being properly administered. All cash receipts, interest accrued to the account, bank charges and
disbursements were reconciled from the monthly bank statement to the accounting journals. As
of November 30, 1994, the monthly account statement from Crestar bank reflected a balance of
$22,425.25 in the Committee's account. This amount reconciles with figures maintained by the
Committee.
In response to the request of the Chairman that members of the Advisory Committee transmit
$3,000 in Fiscal Year (FY) 1993 to sustain the Committee, the Committee received a total of
seventeen checks totaling $51,000. All checks were transmitted by authorized parties and
deposited to the proper account. However one member, Westinghouse, inadvertently posted two
checks of $3,000 each to the Committee dated June 8, and June 15, 1993, respectively.
Thereafter, the duplicate payment was identified by the bookkeeper and a remittance check of
$3,000 was transmitted to Westinghouse on August 1, 1993.

As previously noted, the scope of the audit was the Committee's account for FY 1993 and FY
1994. The finances of the Committee were not subject to the appropriate audit for FY 1993 as
required by FCC Directive FCCINST 1126.1 Section 13 and the Funding statement of the
Committee Section III. (iii).


                                         CONCLUSION

The auditors are of the opinion that the financial reports of the Committee are reconcilable to the
statements provided by Crestar bank from the period of July 1, 1992 through November 30,
1994. Furthermore, it is our opinion that all receipts and expenditures were appropriate within
the guidelines as promulgated in FCCINST 1126.1.




                                                     H. Walker Feaster III



cc: Richard E. Wiley,
    Chairman Advisory Committee on ATS
